   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106

November 5, 2009

Report Number: A-07-09-02746

Mr. Eugene P. Nickerson
Director
Medicare Audit & Reimbursement
National Government Services, Inc.
2 Gannett Drive
South Portland, Maine 04106

Dear Mr. Nickerson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Geographic Classification of Marion General
Hospital for Medicare Operating Disproportionate Share Hospital Payment.” We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-09-02746 in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Direct Reply to HHS Action Official:

Mr. Jonathan Blum
Acting Director
Centers for Drug and Health Plan Choice
Centers for Medicare & Medicaid Services
200 Independence Avenue, SW
314-G, HHH Building
Washington, DC 20201
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL


      REVIEW OF GEOGRAPHIC
CLASSIFICATION OF MARION GENERAL
HOSPITAL FOR MEDICARE OPERATING
    DISPROPORTIONATE SHARE
        HOSPITAL PAYMENT




                         Daniel R. Levinson
                          Inspector General

                          November 2009
                          A-07-09-02746
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 or older, people under age 65 with certain disabilities, and people of
all ages with end-stage renal disease (permanent kidney failure requiring dialysis or a kidney
transplant). The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare hospitals submit cost reports to their Medicare fiscal intermediaries or Medicare
administrative contractors (MAC) annually. (Section 911 of the Medicare Prescription Drug,
Improvement, and Modernization Act of 2003 requires CMS to transfer the functions of fiscal
intermediaries to MACs by October 2011.) Each cost report is based on the hospital’s financial
and statistical records, and the hospital attests to the accuracy of the data when submitting its
cost report. After acceptance of the cost report, the fiscal intermediary performs a tentative
settlement. Before making final settlement, the fiscal intermediary reviews the cost report and, if
necessary, conducts an audit. The fiscal intermediary then issues a notice of program
reimbursement. As the final settlement document, the notice of program reimbursement shows
whether the Medicare program owes the hospital or the hospital owes the Medicare program.

The cost report is used to report various Medicare payments, including an operating
disproportionate share hospital (operating DSH) payment if a hospital is deemed eligible for
reimbursement of operating costs because it treats a disproportionate share of low-income
patients. Medicare fiscal intermediaries or MACs make determinations, based on Federal
regulations, as to whether a hospital qualifies for a Medicare operating DSH payment and the
size of the payment. These determinations depend on numerous factors, including whether the
hospital is in an urban area or a rural area.

Marion General Hospital (Marion) is a 171 bed, acute-care hospital located in Marion, Ohio.
Marion claimed operating DSH adjustments of $1,595,923 on its cost report for the fiscal year
ending June 30, 2003, and $1,304,273 on its cost report for the fiscal year ending June 30, 2004.

For the cost reports reviewed, Marion’s fiscal intermediary was AdminaStar Federal, Inc.
(AdminaStar Federal). Effective January 1, 2007, AdminaStar Federal, along with four other
companies, became National Government Services, Inc. (NGS). Accordingly, we are issuing our
report to NGS.

NGS is based in Indianapolis, Indiana, and currently serves as the fiscal intermediary for
hospitals in several states, including Ohio.

OBJECTIVE

Our objective was to determine whether the geographic classifications used by AdminaStar
Federal to calculate the Medicare operating DSH adjustments resulted in an overpayment.




                                               i
SUMMARY OF FINDINGS

Geographic classifications used by AdminaStar Federal to calculate the Medicare operating DSH
adjustments resulted in an overpayment at one hospital. Of the operating DSH adjustments
totaling $2,900,196 that Marion claimed on its cost reports for the fiscal years ending
June 30, 2003, and June 30, 2004, $437,861 was excessive because AdminaStar Federal
calculated the operating DSH adjustments as if the hospital was urban for the entirety of the two
consecutive cost reporting periods. However, Marion was rural for the period October 1, 2002,
through September 30, 2003. This resulted in an operating DSH overpayment of $437,861.

This overpayment occurred because AdminaStar Federal’s controls did not always ensure that
hospitals received Medicare operating DSH adjustments based upon the correct geographic
classification.

RECOMMENDATION

We recommend that NGS recover the $437,861 in Medicare operating DSH overpayment from
Marion.

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In written comments on our draft report, NGS stated that it has reopened Marion’s cost report for
the fiscal years ending June 30, 2003, and June 30, 2004, and has taken appropriate action to
recover the overpayment. NGS’s comments appear in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATION...............................................................................3

          FEDERAL REQUIREMENTS........................................................................................3

          OVERPAYMENT RECEIVED...................................................................................... 3

          RECOMMENDATION ...................................................................................................4

          NATIONAL GOVERNMENT SERVICES, INC., COMMENTS .................................4

APPENDIX

          NATIONAL GOVERNMENT SERVICES, INC., COMMENTS




                                                                    iii
                                           INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 or older, people under age 65 with certain disabilities, and
people of all ages with end-stage renal disease (permanent kidney failure requiring dialysis or a
kidney transplant). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Medicare hospitals submit cost reports to their Medicare fiscal intermediaries or Medicare
administrative contractors (MAC) annually. 1 Each cost report is based on the hospital’s
financial and statistical records, and the hospital attests to the accuracy of the data when
submitting its cost report. After acceptance of the cost report, the fiscal intermediary performs a
tentative settlement. Before making final settlement, the fiscal intermediary reviews the cost
report and, if necessary, conducts an audit. The fiscal intermediary then issues a notice of
program reimbursement. As the final settlement document, the notice of program reimbursement
shows whether the Medicare program owes the hospital or the hospital owes the Medicare
program.

The cost report is used to report various Medicare payments, including an operating
disproportionate share hospital (operating DSH) payment if a hospital is deemed eligible for
reimbursement of operating costs because it treats a disproportionate share of low-income
patients. Medicare fiscal intermediaries or MACs make determinations, based on Federal
regulations, as to whether a hospital qualifies for a Medicare operating DSH payment and the
size of the payment. These determinations depend on numerous factors, including whether the
hospital is in an urban area or a rural area.

Marion General Hospital (Marion) is a 171 bed, acute-care hospital located in Marion, Ohio.
Marion claimed operating DSH adjustments of $1,595,923 on its cost report for the fiscal year
ending June 30, 2003, and $1,304,273 on its cost report for the fiscal year ending June 30, 2004.

For the cost reports reviewed, Marion’s fiscal intermediary was AdminaStar Federal, Inc.
(AdminaStar Federal). Effective January 1, 2007, AdminaStar Federal, along with four other
companies, became National Government Services, Inc. (NGS). Accordingly, we are issuing our
report to NGS.

NGS is based in Indianapolis, Indiana, and currently serves as the fiscal intermediary for
hospitals in several states, including Ohio.




1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 requires CMS to
transfer the functions of carriers and fiscal intermediaries to MACs by October 2011.


                                                      1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the geographic classifications used by AdminaStar
Federal to calculate the Medicare operating DSH adjustments resulted in an overpayment.

Scope

We reviewed the $2,900,196 in Medicare operating DSH adjustments claimed on Marion’s cost
reports for the fiscal years ending June 30, 2003, and June 30, 2004.

We did not verify the accuracy of the factors in the Medicare operating DSH computation, other
than to verify the accuracy of the geographic classification of the hospital.

We conducted our audit from June through December 2008.

Methodology

To accomplish our objective, we did the following:

       We reviewed applicable Federal laws and regulations.

       We interviewed CMS officials to gain an understanding of how Medicare operating DSH
        payments are calculated.

       We obtained all cost reports from the Healthcare Cost Report Information System 2 for
        acute-care inpatient hospitals whose cost reporting periods ended in calendar years 2003
        through 2006 as of March 31, 2007.

       We determined the geographic classification for all hospitals using data from the most
        recent U.S. Census to identify whether particular hospitals were geographically classified
        as rural or urban during our audit period. We then accounted for reclassifications done
        by the Medicare Geographic Classification Review Board and “Lugar” reclassifications
        (discussed below) in accordance with Section 1886(d)(8)(B) of the Act.

       We used the cost report data to recalculate the operating DSH payments based upon these
        geographic classifications to identify any hospitals that may have received an
        overpayment due to using an incorrect geographic classification. As a result of this
        process, we selected Marion’s cost reports for the fiscal years ending June 30, 2003, and
        June 30, 2004, for further review.



2
 The Healthcare Cost Report Information System is a national database containing financial and statistical
information extracted from hospital cost reports.


                                                         2
      We contacted NGS and confirmed, for the applicable Federal fiscal years, how Marion
       was geographically classified and determined how AdminaStar Federal calculated the
       operating DSH adjustments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Geographic classifications used by AdminaStar Federal to calculate the Medicare operating DSH
adjustments resulted in an overpayment at one hospital. Of the operating DSH adjustments
totaling $2,900,196 that Marion claimed on its cost reports for the fiscal years ending
June 30, 2003, and June 30, 2004, $437,861 was excessive because AdminaStar Federal
calculated the operating DSH adjustments as if the hospital was urban for the entirety of the two
consecutive cost reporting periods. However, Marion was rural for the period October 1, 2002,
through September 30, 2003. This resulted in an operating DSH overpayment of $437,861.

FEDERAL REQUIREMENTS

Pursuant to 42 CFR § 412.106, hospitals that serve a disproportionate number of low-income
patients may receive an additional Medicare operating DSH payment. Determinations as to
whether a hospital qualifies for a Medicare operating DSH payment and the size of the payment
depend in part on whether the hospital is in an urban area or a rural area.

The geographic classifications used to determine whether the hospital is in an urban area or a
rural area are based upon the definitions in 42 CFR §§ 412.62(f) or 412.64, which generally
identify an urban area as a metropolitan statistical area as defined by the Office of Management
and Budget (OMB). On June 6, 2003, OMB began classifying geographic areas using the core-
based statistical areas identified on the decennial census conducted in 2000. CMS deferred
implementation of these classifications until October 1, 2004.

A hospital’s geographic classification can be reclassified by the Medicare Geographic
Classification Review Board through an application process in accordance with 42 CFR
§ 412.230. A hospital’s geographic classification can also be deemed urban if that
hospital meets certain criteria based on residents’ commuting patterns and population density.
These “Lugar” hospitals are located in rural counties and have been reclassified as urban under
§ 1886(d)(8)(B) of the Act.

OVERPAYMENT RECEIVED

Marion claimed an operating DSH overpayment of $437,861 on its cost reports for the fiscal
years ending June 30, 2003, and June 30, 2004, because AdminaStar Federal incorrectly
calculated the operating DSH adjustments as if Marion was urban for the two consecutive cost



                                                3
reporting periods. However, Marion was rural for the period October 1, 2002, through
September 30, 2003, and for that time period AdminaStar Federal should have calculated the
operating DSH adjustments accordingly.

The OMB definitions then in effect geographically classified Marion as a rural hospital for the
periods of both of these cost reports. However, Marion received a reclassification to an urban
area by the Medicare Geographic Classification Review Board for Federal fiscal years 2002 and
2004. Because Marion did not receive a geographic reclassification to an urban area for Federal
fiscal year 2003, it was classified as rural. However, AdminaStar Federal calculated the
operating DSH adjustments as though Marion was rural for Federal fiscal year 2003
(October 1, 2002, through September 30, 2003).

This overpayment occurred because AdminaStar Federal’s controls did not always ensure that
hospitals received Medicare operating DSH adjustments based upon the correct geographic
classification.

RECOMMENDATION

We recommend that NGS recover the $437,861 in Medicare operating DSH overpayment from
Marion.

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In written comments on our draft report, NGS stated that it has reopened Marion’s cost report for
the fiscal years ending June 30, 2003, and June 30, 2004, and has taken appropriate action to
recover the overpayment. NGS’s comments appear in their entirety as the Appendix.




                                                4
APPENDIX
                                                                                                      Page 1 of2


                                APPENDIX: AUDITEE COMMENTS



""",JlII{
    L..National Govemment
             services. 	                                                              Medicare
    N~I"",.I eo""",......"   s.",.",., \roc.
    1'01k>. t806
    Sy,:oru.... Nc-w Vo<k l I D , _
    A CM5C"",,,,,,,n/.1I1""'




    August 28, 2009




    Mr. Patrick J. Cogley 

    Regional Inspector General for Audit Services 

    Office of Inspector General
    601 East I2"'Slreet
    Room 0429
    Kansas City, MO 64106


    Re: 	 A-07-09-02746 

          Marion General Hospital-Provider Number 36-0011 

           FYE 6130/03 and 6/30/04 


    Dear Mr, Cogley;

    In response to the draft audit report dated Ju ly 31, 2009 regarding the "Review of Geographic
    Classification of Marion General Hospital for Medicare Operating Disproportionate Share
    Hospital Payment". please consider the foUowing comments.

    National Govemment Services, Inc. (NCS) originaUy rnisclassified Marion General Hospital as
    'urban' in the c,lIC1.Jlation of operating and capital disproportionate share (05J-1) payments due 10
    the change in reclassification from 'urban' to 'rural' that was effective on October 1. 2002.
    jSM{lDL-08362 iden tified the misdassification error relating to the capi tal portion of the DSH
    calculation on the FYE 6f3(J/03 cost report. At that time, we also identified the miscalculation on
    the opera ting DSH for FYE 6/30/00. Upon further investigation NGS iden tified a partial year
    misclassification on the FYE 6/30/04 cost report for both operating and c<lpit<ll DSH.

    On October 2, 2008, NGS issued Marion General Hospi tal a Revised Noti~ of Program
    Reimbursement for FYE 6/30/03 to «mect operating and capital disproportionate s hare payments
    rerovering $475,521 . We a lso issued a Notice of Reopening on October 21, 2008 for FYE 6f3(J/04.
    A Revised Notice of Program Reimbursement for FYE 6/30/04 was issued on April 17,2009 10
    correct operating and capital disproportionate share payments for the period of time the hospit<ll
    was reclassified as rural recovering $54,730.



                                                                                           cAlsj
                                                                                    -	 . .- ---7
                                                                                          Page 2 of2




In summary, NGS has reopened and recovered S530,251 from Marion Gener,)! Hospital for FYE's 

6/30103 and 6130/04 for operating and capital disproportionate share payments. 


If you should have any questions, please contact Kathy Guran at (513) 852-4274. 


Sincerely, 




 ~fYJ~
Eug<{ne P. Nickerson
Director, Medicare Audit & Reimbursement
Nation,,1 Government Services, tnc.

cr: Kathy Guran
